No. 19-1186
IN THE

Supreme Court of the United States
JOSHUA BAKER, in his official capacity as Director, South Carolina
Department of Health and Human Services,
Petitioner,

v.
JULIE EDWARDS, on her behalf and on behalf of
others similarly situated, et al.,
Respondents.

_______________
On Petition for Writ of Certiorari to the United States
Court of Appeals for the Fourth Circuit
_______________
AMICUS CURIAE BRIEF OF AMERICAN CENTER FOR LAW AND
JUSTICE, AND THE COMMITTEE TO ALLOW STATES TO DEFUND
PLANNED PARENTHOOD, IN SUPPORT OF PETITIONER
CERTIFICATE OF WORD COUNT
Jay Alan Sekulow, a member of the Bar of this Court and an attorney for amicus,
pursuant to Rule 33.1(h), hereby certifies that the Amicus Curiae Brief of the
American Center for Law and Justice, and the Committee to Allow States to Defund
Planned Parenthood in Support of Petitioners complies with the word limitations of
Rule 33.1(h). The brief, excluding the parts mentioned in Rule 33.1(d), contains 2,823
words, including footnotes.

/s Jay Alan Sekulow
Jay Alan Sekulow
April 29, 2020

